                                                 AUDIT RESULTS

ED Activities Which Collect Personally Identifiable Information

We identified 54 ED activities which voluntarily collect personally identifiable information
through the Internet. The information collected generally includes names, mailing addresses,
email addresses, and phone numbers. Attachment 1 provides a list of the activities identified.

Use of Agreements with Third Parties

ED officials informed us that ED does not have agreements with third parties for the purpose of
collecting personally identifiable information as stated in Title VI, Section 646 of the Act.
During our limited testing of ED Internet sites and Web pages, nothing came to our attention to
indicate that such agreements exist.

Findings on ED's Management of Internet Activities

During our audit, we reviewed 64 ED Internet servers, 111 Internet sites, and 4,056 Web pages
that were on-line as of January 26, 2001. We analyzed ED's use of cookies on its Internet
servers. A "cookie1" is information that a Web site puts on the user's computer so that it can
track information about that user. There are two types of cookies:

•      Session Cookie: A cookie used to retain and correlate information about users during a
       single session that expires when the user ends that browser session.

•      Persistent Cookie: A cookie with a set expiration date that can be used to trace the activities
       of users over time. It may store the user's log-in information including password and email
       address used by the user to access an Internet site.

We designed our test to determine the existence of persistent cookies which would allow ED to
collect and use personally identifiable information. We also tested whether ED adequately
posted privacy policies on sites collecting personally identifiable information and tested whether
ED used means other than cookies to collect personally identifiable information without the end
user's direct knowledge.

As a result of these tests, we identified three areas needing additional oversight. Specifically, we
found that ED needs to 1) strengthen controls over the use of persistent cookies, 2) ensure that
privacy policy notices are provided, and 3) monitor methods for collecting personally
identifiable information.




1
    Definitions for "cookie" and other Internet technology terms are provided in Attachment 2.
                                                                                                Page 2 of 10




Finding 1: ED Needs to Strengthen Controls Over the Use of Persistent Cookies

We found that 4 of ED’s 64 Internet servers attached persistent cookies. In three occurrences,
management was not aware that the servers were attaching persistent cookies. In the fourth
occurrence, management was aware of the cookie but did not know that it was a persistent
cookie lasting 36 years. While our limited testing did not identify that these cookies were
collecting personally identifiable information, ED needs to ensure that controls are in place to
detect the use of persistent cookies.

Office of Management and Budget (OMB) Memorandum 00-13 states “cookies should not be
used at Federal web sites, or by contractors when operating web sites on behalf of agencies,
unless, in addition to clear and conspicuous notice, the following conditions are met: a
compelling need to gather the data on the site; appropriate and publicly disclosed privacy
safeguards for handling of information derived from cookies; and personal approval by the head
of the agency.” The four servers we identified are:

•   ocfo.ed.gov (also accessible as gcs.ed.gov) (Figure 1):
    This server attached a persistent cookie with an
    expiration date of December 30, 2010. The
    responsible ED official was not aware that this server
    was attaching persistent cookies and stated that any
    information that might be stored by these cookies was
    not being used by ED.




                                                                Figure 1. ocfo.ed.gov persistent cookie




•   easitest.ed.gov (Figure 2): This server attached a
    persistent cookie with an expiration date of December
    30, 2010. ED officials stated that this server was
    obsolete and should have been taken off-line about 18
    months ago. These officials were not aware that the
    server was attaching persistent cookies and were
    unaware of any information that might be stored by
    the persistent cookies or how such information might
    be used.


                                                                Figure 2. easitest.ed.gov persistent
                                                                cookie




                                        ED-OIG/A11-B0002
                                                                                                          Page 3 of 10




•   nle2.ed.gov (Figure 3): This server attached a persistent
    cookie with an expiration date of September 26, 2037.
    ED officials were not aware that the server was attaching
    persistent cookies. The site has an average of over
    18,8002 unique visitors monthly.




                                                                               Figure 3. nle2.ed.gov persistent cookie




•   students.gov (also accessible as
    www.students.gov)(Figure 4): This server attached a
    persistent cookie with an expiration date of September
    26, 2037. ED officials were aware of this cookie but
    thought it was “temporary” lasting only 48 hours.




                                                                             Figure 4. students.gov persistent cookie



ED officials told us that they were not aware of the presence of persistent cookies in the four
servers we identified in our testing. Accordingly, none of these servers provided "clear and
conspicuous notice" explaining the use of the persistent cookies to the end user as required by
OMB 00-13. Three of the four servers identified did not have a privacy policy notice or a link to
a privacy policy notice. The students.gov server had a link to a privacy policy, but it
inappropriately described the cookie as a “temporary” rather than a persistent cookie.

In August 2000, the ED Internet Working Group3 provided the results of its survey on the use of
cookies. ED Principal Offices were polled in July 2000 to identify all use of “cookies” on public
access web sites in the ed.gov domain.4 ED officials identified 13 instances of session cookies.
The survey identified one persistent cookie but this use met a valid business purpose and expired
in 24 hours. The survey report stated that, "The survey indicates that ED is using cookies
2
  This number represents a three month average using the total number of unique visitors to the nle2 server for the
months of October, November, and December 2000.
3
  The Internet Working Group is composed of principal office representatives who design processes for quality
control and monitoring of ED's Web sites. It is chaired by the Office of the Chief Information Officer.
4
  The ed.gov domain represents all ED controlled Web pages. We sampled about one percent of the Web pages for
the domain. The persistent cookie identified by ED, ED Publications ordering, did not fall into our sample.


                                               ED-OIG/A11-B0002
                                                                                         Page 4 of 10




responsibly; no instances were discovered where cookie use was functionally unnecessary or
accidental." Our results indicate that persistent cookies were being attached without
management knowledge or a documented need.

ED's management controls for reviewing ED Web sites and World Wide Web operations did not
specify that ED officials should review them for the use of persistent cookies. ED officials
provided us with the internal policy, procedures, and checklists that they use for ED's Internet
servers, sites, and Web pages. None of these documents provided instructions for reviewing
existing servers regarding the use of persistent cookies.

Recommendations:

The Chief Information Officer should:

1.1. Determine whether the four persistent cookies identified in this report are necessary. ED
     should remove any unnecessary cookies and ensure that any remaining cookies comply
     with OMB 00-13.

1.2. Determine how the four persistent cookies identified in this report were attached without
     management knowledge and implement procedures to prevent future instances.

1.3. Revise existing procedures to require principal office officials to review servers, sites, and
     Web pages in advance to determine that unnecessary persistent cookies are not used.

1.4. Develop and implement procedures to periodically review all servers, sites, and Web pages
     to identify existing cookies and to determine that applicable legal and regulatory
     requirements have been met for their use.

1.5. Develop and implement procedures to remove obsolete servers, sites, and Web pages.


Finding 2: ED Needs to Ensure Privacy Policy Notices Are Provided

ED officials did not consistently provide required privacy policy notices for Web pages that
collect personally identifiable information. We found that 32 (59%) of the 54 activities
identified as collecting personally identifiable information through the Internet did not have
privacy policy notices or links to notices. Privacy policy notices or links to these notices may
have been used on "Home" Web pages, but they were not always used on the pages that collect
personally identifiable information.

OMB Memorandum 99-18, Privacy Policies on Federal Web Sites, specifies that Federal
agencies should provide privacy policy notices at major entry points, as well as at any web page
where the agencies collect substantial personal information from the public. The memorandum
adds that "each policy must clearly and concisely inform visitors to the site what information the




                                         ED-OIG/A11-B0002
                                                                                         Page 5 of 10




agency collects about individuals, why the agency collects it, and how the agency will use it.
Privacy policies must be clearly labeled and easily accessed when someone visits a web site."
Additionally, ED's World Wide Web Server Policy and Procedures (June 1999) specify that ED
officials must review Internet sites in advance to ensure that information contained and
transmitted via the ED-WWW Server will be secure, that all relevant Federal statutes are adhered
to, and appropriate warnings, disclosures and/or disclaimers are openly displayed.

ED officials originally identified 46 activities where personally identifiable information is
collected through the Internet. The activities collect personally identifiable information such as
names, addresses, email addresses, and phone numbers. During our audit, we identified an
additional 8 activities. Of these 54 activities, privacy policy notices were not provided for 32
(59%) of the activities as required by OMB and ED policies. Attachment 1 provides the 54
activities and identifies those that did not provide privacy policy notices.

For example, as illustrated in Figure 5, the Office of Elementary and Secondary Education's
Reading Excellence Program has a registration form available on-line. At the time of our
review, this Web page did not provide a privacy policy notice or a link to a notice. OMB
specifies that privacy policy notices must be clearly labeled and easily accessed.




   Figure 5: Illustration of personally identifiable information collected through
   ED Internet site http://www.ed.gov/offices/OESE/REA/application.html

                                               ED-OIG/A11-B0002
                                                                                       Page 6 of 10




Recommendations:

The Chief Information Officer should:

2.1. Identify all major entry points to ED's Internet information as well as any web pages where
     ED collects personal information from the public. Once all of these locations are
     identified, ED needs to create privacy policy notices or obvious links to privacy policy
     notices as required by OMB.

2.2. Develop and implement management controls designed to ensure that privacy policy
     notices are located on needed entry points and Web pages of both existing and future sites.


Finding 3: ED Should Monitor Methods for Collecting Personally Identifiable
           Information.

After completion of our testing for cookies, we performed several analyses of the source code of
the Web pages in the sample. This testing was performed to provide assurance that ED was not
making use of Web Bugs, hidden forms, client side scripts, links to anonymous File Transfer
Protocol (FTP) servers, or other means to collect personally identifiable information from
Internet sites without a user’s direct participation and knowledge. The results of our testing
disclosed nine pages where ED used links to anonymous FTP servers.

  •   Five pages were on a site used by ED employees to read their government email over the
      public Internet.

  •   Four pages were on a site used to obtain technical reference documents related to Student
      Financial Assistance (SFA).

Web browsers have a built-in function that passes the user’s email address to anonymous FTP
servers when files are downloaded. Typical Internet users are often not aware that this type of
personally identifiable information is being provided to the server. Our discussions with ED
personnel responsible for managing ED’s Internet sites indicated that they did not know that they
were still running anonymous FTP servers.

Recommendations:

The Chief Information Officer should:

3.1. Determine if there is still adequate justification for maintaining anonymous FTP servers. If
     there is such a need, provide adequate disclosure to users that their email address may be
     collected using the server and how ED will use the email addresses collected.

3.2. Develop and implement procedures to identify and prevent Web Bugs, hidden forms,
     embedded client side scripts, links to anonymous FTP servers, or other means to collect
     personally identifiable information from Internet sites without a user’s direct knowledge.



                                        ED-OIG/A11-B0002
                                                                                        Page 7 of 10




Auditee's Response and Auditor Comments

We received and reviewed your comments dated February 15, 2001. In your response, you state
that the Office of the Chief Information Officer (OCIO) concurs with the basic findings of our
draft audit report and that the report was complete and well done. Your response, which is
included as Attachment 3 to this report, also contained observations and corrective actions
completed and planned. In general, we find the draft report responses satisfactory to begin
addressing our recommendations. The following paragraphs are additional comments that we
have to specific statements in your response.

Your response states that the four persistent cookies we identified have been removed and that
easitest.ed.gov has been removed from service. As of February 16, we found that the
easitest.ed.gov server was still accessible and that the students.gov server was still attaching a
persistent cookie. Other than testing for the removal of persistent cookies on these four servers,
we have not taken steps to confirm that your stated completed actions were implemented.

Your response also states that SFA officials "disagree with the interpretation of what constitutes
a site of interest" in reference to the additional sites or pages that we found as collecting
personally identifiable information in Attachment 1 of this report. We used OMB Memorandum
99-18 Attachment as our criteria for information on what constitutes personally identifiable
information. This memorandum includes email addresses as personally identifiable information.
Although SFA officials disagreed with this interpretation, they agreed to modify the sites we
identified to ensure that privacy policy notices are provided.

Additionally, your response included a clarification provided by the National Center for
Education Statistics (NCES) officials concerning NCES Web pages identified in Attachment 1.
We have updated Attachment 1 to include the NCES pages specified and noted that these pages
have privacy policy notices.


                                          BACKGROUND

ED uses a decentralized approach for ensuring that ED Internet sites and Web pages comply with
laws, memoranda, and policies and procedures. Each Principal Office within ED is responsible
for its respective Internet sites and Web pages and the content on the sites and pages. ED's
Internet Working Group has a representative from each ED Principal Office. It is chaired by the
OCIO. These members are involved in development efforts for their respective Principal
Offices. All of ED, including SFA, are required to follow World Wide Web Server Policy and
Procedures (June 1999) issued by OCIO.




                                        ED-OIG/A11-B0002
                                                                                            Page 8 of 10




                    AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

Audit Objectives

The objectives of our audit were to report to Congress any activity of ED relating to:

(1) the collection or review of singular data, or the creation of aggregate lists that include
    personally identifiable information about individuals who access any Internet site of ED;
    and

(2)    agreements with third parties to collect, review, or obtain aggregate lists or singular data
       containing personally identifiable information relating to any individual's access or viewing
       habits for government and non-governmental Internet sites.

Scope and Methodology

To fulfill these objectives, our audit focused on disclosing any activities that collect personally
identifiable information through the Internet and disclosing agreements with third parties to
collect personally identifiable information relating to any individual’s access or viewing habits
on ED or non-governmental Internet sites. For the activities that collect personally identifiable
information, we tested to determine whether or not these activities had required privacy policy
notices. We also tested our sample for the existence of persistent cookies and the use of Web
bugs, hidden forms, embedded client-side scripts, links to anonymous FTP servers, or other
means for Internet sites to collect personally identifiable information without a user’s direct
participation.

We interviewed officials from ED's OCIO and from the three offices responsible for the Internet
sites or Web pages that assigned persistent cookies, specifically officials from SFA, Office of the
Chief Financial Officer, and NCES.

Our audit included ED Internet servers, sites, and Web pages that were on-line as of January 26,
2001. Because ED continuously updates its Internet servers, sites, and Web pages, some of the
information that we included in our review may not be currently available.

We used Internet search engines to identify web pages for each of the 111 Internet sites in our
sample. We selected a sample of Web pages to review. When the site had fewer than 100 pages,
we reviewed all of the pages. For sites having 100-199 pages, we reviewed the first 100. For
sites having greater than 200 pages, we randomly sampled 100 pages.

We analyzed:

•     4,056 Web pages or approximately 1 percent of the total number of ED’s Web pages;
•     64 ED Internet servers (100 percent of ED Internet servers available);
•     111 ED Internet sites (100 percent of ED Internet sites available); and
•     54 activities that collect personally identifiable information through ED Internet sites.




                                           ED-OIG/A11-B0002
                                                                                        Page 9 of 10




To perform our analysis, we used a software package to test ED’s Internet servers for the use of
persistent cookies. All other analysis was done by our auditors accessing ED Internet servers,
sites, and Web pages; by reviewing ED documents; and by interviewing ED officials.

We performed our audit work at ED between December 8, 2000, and February 6, 2001. Our
audit was performed in accordance with Government Auditing Standards appropriate to the
scope of the review.

                       STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we assessed the system of management controls, policies, procedures, and
practices applicable to our objectives. These included controls over the operation of ED's
Internet sites. Because of inherent limitations, a study and evaluation made for the limited
purposes of disclosing any ED activities that collect personally identifiable information through
the Internet and disclosing ED agreements with third parties to collect personally identifiable
information relating to any individual’s access or viewing habits on ED or non-governmental
Internet sites would not necessarily disclose all material weaknesses in management controls.
However, our assessment identified management control weaknesses as discussed in the audit
results section of this report.

                               ADMINISTRATIVE MATTERS

Please provide us with your final response to each open recommendation within 60 days of the
date of this report indicating what corrective actions you have taken or plan to take and the
related milestones.

In accordance with OMB Circular A-50, we will keep this audit report on the Office of Inspector
General (OIG) list of unresolved audits until all open issues have been resolved. Any reports
unresolved after 180 days from the date of issuance will be shown as overdue in the OIG’s
Semiannual Report to Congress.

Accordingly, please provide the Supervisor, Post Audit Group, Financial Improvement and Post
Audit Operations, OCIO and OIG’s Assistant Inspector General for Audit Services with
semiannual status reports. These reports should address promised corrective actions until all
such actions have been completed or continued follow-up is unnecessary.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued by OIG
are available, if requested, to members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given during the audit. If you have any questions or wish to
discuss the contents of this report, please call Jack Rouch, Director, Systems Internal Audit
Team on 202-260-3878. Please refer to the control number in all correspondence relating to this
report.

Attachments



                                        ED-OIG/A11-B0002
                                           ED ACTIVITIES                             Page 1 of 2
                                                                              ATTACHMENT 1

                                                  PERSONALLY IDENTIFIABLE   PRIVACY POLICY
                                                  INFORMATION COLLECTED?      PROVIDED?
#    ED IDENTIFIED ACTIVITY                           NO         YES         NO       YES
     www.ed.gov
 1    /comments/national/forum/question.html                      1          1
 2    /comments/nationalforum97/index.html                        1                    1
 3    /comments/problemform/ProblemForm.html                      1                    1
 4    /comments/TeachLeader/index.html                            1                    1
 5    /Family/agbts/tellus.html                                   1          1
 6    /Family/agbts_old/agbts98/form.html                         1          1
 7    /Family/agbts_old/tellus.html                               1          1
 8    /G2K/community/subscribe.html                               1          1
 9    /inits/americareads/fwsform.html                            1          1
10    /inits/americareads/pcform.html                             1          1
11    /inits/Millennium/jazzreg.html                              1          1
12    /offices/OESE/REA/application.html                          1          1
13    /offices/OESE/t1.html                                       1          1
14    /offices/OIG/feedback.htm                                   1          1
15    /offices/OIG/hotlineform.htm                                1          1
16    /offices/OLCA/olcaform.html                                 1          1
17    /offices/OPE/News/collegeweek/                              1                    1
         ncwparticipate.html
18    /offices/OPE/thinkcollege/comment.html                      1          1
19    /offices/OPE/thinkcollege/early/about_us/                   1          1
         comment.html
20    /offices/OUS/chip/pledge.html                               1          1
21    /offices/OUS/PES/NAVE/feedback.html                         1                    1
22    /Programs/EROD/EROD_collect.html                            1          1
23    /pubs/CompactforReading/survey.html                         1          1
     NCES
24   National Postsecondary Aid Study                             1          1
     NPSAS WEB (http://npsas.rti.org/)
25   http://nces.ed.gov/newsflash/                                1                    1
26   National Assessment of Educational                           1                    1
        Progress (NAEP) Questionnaire
27   NAEP's My School                                             1                    1
     http://nces.ed.gov/naep/myschool
28   NAEP Network                                                 1                    1
     List of state testing directors & NAEP
     coordinators.
29   surveys.nces.ed.gov/ipeds/                                   1                    1
30   surveys.nces.ed.gov/library/als/                             1                    1
31   surveys.nces.ed.gov/library/stla/                            1                    1
32   Partnership for Family Involvement in                        1          1
       Education Registration Form
     http://pfie.ed.gov "How to Join" link
33   STW.ed.gov
     Website Comments & Suggestions
     stw.ed.gov/Database/comments.htm                             1          1



                                            ED-OIG/A11-B0002
                                                ED ACTIVITIES                                         Page 2 of 2
                                                                                                ATTACHMENT 1
34 Examples that work suggestion box                                         1                 1
   www.stw.ed.gov/EXP_WORK.CFM
35 STW Listserv                                                              1                 1
   www.stw.ed.gov/list2.htm
36 e-application                                                             1                 1
   e-grants.ed.gov/e-App/eaHome.asp
37 http://registerevent.ed.gov/                                              1                 1
   Teleconferences Registration Web Site
38 ifap.ed.gov "Members Services"                                           1                  1
39 edwebenroll.ed. or sfawebenroll.ed.gov                                   1                           1
40 fafsa.ed.gov                                                             1                           1
41 www.pellgrantsonline.ed.gov                                              1                           1
42 www.loanconsolidation.ed.gov                                             1                           1
43 www.dlservicer.ed.gov                                                    1                  1
44 edeworkshop.walcoff.com/secure/main.htm                                  1                  1
45 www.ed.gov/DirectLoan/consolid2.html                                     1                  1
46 pin.ed.gov or eac.ed.gov                                                 1                          1
   TOTALS                                                   0               46                 29      17

     In addition to the sites identified by ED, we found 8 additional sites that collect personally
     identifiable information.

47 www.nslds.ed.gov                                                          1                 1
48 www.afterschool.ed.gov                                                    1                          1
49 webx.ed.gov                                                               1                          1
50 test.ifap.ed.gov                                                          1                          1
51 sfablueprint.ed.gov / www.sfablueprint.ed.                                1                 1
      gov/sfa-vfa.ed.gov
52 ombudsman.ed.gov / www.ombudsman.ed.                                      1                          1
       gov/sfahelp.ed.gov
53 students.gov/www.students.gov                                             1                          1
54 nle2.ed.gov                                                               1                 1
   TOTALS                                                   0                8                 3        5

     GRAND TOTALS                                           0               54                 32      22




                                                 ED-OIG/A11-B0002
                                                                                 Page 1of 2


                                                                            Attachment 2
                                      GLOSSARY

1. Browser: An application program that provides a way to look at and interact with
   information on the World Wide Web.

2. Client: The requesting program or user in a client/server relationship. For example,
   the user of a Web browser is effectively making client requests for pages from servers
   all over the Web. The browser itself is a client in its relationship with the computer
   that is getting and returning the requested HTML file. The computer handling the
   request and sending back the HTML file is a server.

3. Cookie: Information that a Web site puts on the user's computer hard disk so that it
   can remember something about the client at a later time. (More technically, it is
   information for future use that is stored by the server on the client side of a
   client/server communication.) Typically, a cookie records the user's preferences
   when using a particular site. Using the Web's Hypertext Transfer Protocol (HTTP),
   each request for a Web page is independent of all other requests. For this reason, the
   Web server has no memory of what pages it has sent to a user previously or anything
   about the previous visits. A cookie is a mechanism that allows the server to store its
   own information about a user on the user's own computer.

    •   Persistent Cookie: A cookie with a set expiration date that can be used to track
        the activities of the user over time. It may store the user's log-in information
        including password and email address used by the user to access an Internet site.

    •   Session Cookie: A cookie used to retain and correlate information about a user
        during a single session. It expires when the user ends the browser session.

4. FTP: File Transfer Protocol, a standard Internet protocol that is the simplest way to
   exchange files between computers on the Internet.

    •   Anonymous FTP: A method for giving users access to files so that they do not
        need to identify themselves to the server.

5. Hypertext: The organization of information units into connected associations that a
   user can choose to make. An instance of such an association is called a link or
   hyperlink.

6. Internet Server: In general, a computer program that provides services to other
   computer programs in the same or other computers. A computer that holds the files
   for one or more sites.

7. Internet site: A collection of Web pages on a particular subject that can be accessed.




                                    ED-OIG/A11-B0002
                                                                                   Page 2of 2


 8. Link: Using hypertext, a link is a selectable connection from one word, picture, or
    information object to another.

 9. Personally Identifiable Information: Name, email address, Social Security number, or
    other unique identifier.

10.   Web bug: A file object, usually an image file that is placed on a Web page or in an
      email message to monitor user behavior, functioning as a kind of spyware. Unlike a
      cookie, which can be accepted or declined by a browser user, a Web bug arrives as
      just another image on the Web page. A Web bug is typically invisible to the user
      because it is transparent (matches the color of the page background) and takes up only
      a tiny amount of space. It can usually only be detected if the user looks at the source
      version of the page to find an image that loads from a different Web server than the
      rest of the page.

11. Web page: On the World Wide Web, a page is a file notated with the Hypertext
    Markup Language (HTML). Usually, it contains text and specifications about where
    image or other multimedia files are to be placed when the page is displayed.




                                      ED-OIG/A11-B0002
                                                                                   Attachment 3


      contractor inadvertently implemented persistent cookies by failing to modify default
      ColdFusion settings. Cookies have been removed from all but one of the
      approximately 15 ColdFusion applications. The remaining application will be
      converted within the next two weeks to use server-side session variables instead of
      cookies.

      students.gov This was an anomaly. We believe that it was built on with old
      ColdFusion software. The cookie has been removed.

      OCIO procedures will be modified to include cookie tests as part of acceptance
      testing checklist for future new applications and for modifications to ensure
      compliance. See responses 1.3 below.

1.3   Revise existing procedures to require principal office officials to review servers,
      sites and Web pages in advance to determine that unnecessary persistent cookies
      are not used.

      OCIO will revise its web policies and procedures to require that all new applications
      and web page adds/changes must be reviewed for use of cookies and collection of
      individually identifiable information. Principal Offices other than SFA and NCES are
      not well-staffed or well-prepared to do this kind of review. Most of them don't do the
      basics like making sure their links work or their pages are accessible. For
      www.ed.gov, to ensure compliance, we'll need to do that in the Web Services Group
      (WSG) and contractor review of materials before they're posted to the live site. OCIO
      will require that the Web Services Group staff and Internet Application Support
      contract staff -the last two steps in the standard web posting workflow for ed.gov -
      consistently conduct such review on all postings. Principal Offices' editors will be
      made aware of the new policies and procedures via the Internet Working Group
      (IWG). OCIO procedures will require cookie tests as part of the acceptance testing
      checklist for future new applications and modifications to ensure compliance.

1.4   Develop and implement procedures to periodically review all servers, sites, and Web
      pages to identify existing cookies and to determine that applicable legal and
      regulatory requirements have been met for their use.

       OCIO's initial research within this short comment period has not uncovered any
       automated tools for this purpose. Without automated tools, it would be excessively
       burdensome to manually check each of the more than 50,000 web pages on
       ed.gov on a periodic basis. OCIO proposes instead to:

                   Scan the site thoroughly once to ensure a clean baseline, using
                   manual methods and concentrating on those items most likely to
                   harbor cookies and collection of individually identifiable information,
                   i.e., database applications, web discussion forums, CGI scripts, and
                   embedded Javascript. Closely inspect future applications and web
                   pages adds/changes to ensure continuing compliance.

1.5    Develop and implement procedures to remove obsolete servers, sites, and Web
       pages.
                                                                                      Attachment 3



      The ED Web redesign that is currently underway will institute a metadata schema
      that will include Archive/Update Action, Archive/Update Date, and Records
      Management elements to help identify web pages that need to be archived or
      removed. However, until the National Archives and Records Administration (NARA)
      issues clear guidance for web page retention schedules, there will continue to be
      uncertainty among Principal Office editors about whether to retain or remove aging
      pages.

Finding 2. ED Needs to Ensure Privacy Policy Notices Are Provided.

2.1    Identify all major entry points to ED's Internet information as well as any web
       pages where ED collects personal information from the public. Once all of these
       locations are identified, ED needs to create privacy policy notices or obvious links
       to privacy policy notices as required by OMB.

       Twelve of the top twenty entry points, and eight of the top ten entry points, (based
       on January 2001 WebTrends reports) now link to ED's general privacy policy
       notice. Links will be added to the remaining eight entry points within the two next
       weeks.

       In the absence of automated tools, OCIO will use manual methods and available
       aids such as the Inktomi site search engine and LinkScan link checking/site analysis
       software to help identify pages that are likely to collect personal information, e.g., all
       database applications, web discussion forums, CGI scripts, pages containing the
       words "last name," "first name," "email address," or "phone number". OCIO will
       conduct a one-time scan and cleanup to establish a clean baseline.

2.2    Develop and implement management controls designed to ensure that privacy
       policy notices are located on needed entry points and Web pages of both existing
       and future sites.
       See response to 1.4.

Finding 3. ED Should Monitor Methods for Collecting Personally Identifiable
Information.


        Determine if there is still adequate justification for maintaining anonymous FTP
        servers. If there is such a need, adequate disclosure should be provided to users
        that their email address may be collected using the server and how ED will use the
        email addresses collected.

        The anonymous FTP service on emai102.ed.gov has been shut down by disabling
        anonymous access on emai102.ed.gov and by blocking FTP access to emai102
        through the ED firewall.

        Web Bugs, that is hidden forms, controls, links to anonymous FTP sites: Our
        Standard Operating Procedures includes a review of content and imbedded
        controls before any pages are posted to the ed.gov sites. In addition, ed.gov is
        managed by the TeamSite application which continually compares production



                                                 3
                                                                                    Attachment 3


       content to backup copies and overwrites any unauthorized changes to production
       content. This has the effect of removing any malicious Web Bugs.

3.2    Develop and implement procedures to identify and prevent Web Bugs, hidden
       forms, embedded client side scripts, links to anonymous FTP servers, or other
       means to collect personally identifiable information from Internet sites without a
       user's direct participation and knowledge.
       To test our sites, the IG used a browser that they were able to control from a
       script. They brought up each page on their list, looking for cookies before and
       after the page was visited, and noted any cookies that were left on the client after
       visiting a page. This is a tedious resource consuming process.
       A primary concern is the resources that would be required to review the amount
       of content that is updated daily. We will evaluate alternative solutions but have
       reservations about using the sitemap-driven automated testing procedure since
       ed.gov contains more than 50,000 individual pages which would probably put a
       serious strain on both the server and client if a script ran each page through a
       browser. The procedures would require manual attention to each step in the
       process unless the page that produced each cookie were automatically logged.
       We are looking at the upcoming release of the LinkScan link-checking tool we
       already use to check the site each night to see whether it can be used in a more
       efficient way to do the same job.
       See also the responses to 1.4 and 2.1.

Attachment I. ED Activities. The following comments apply to the sites listed in
Attachment I.

From SFA: Of the eight sites identified as "found" by the IG, five are SFA sites. The wording
in the report suggests that SFA failed to identify these sites as collecting personal data. In
fact, we disagree with the interpretation of what constitutes a site of interest. These sites
have in common an HTML "e-mail" page for reporting problems, or requesting more
information, into which the user types his/her email address. Since we do not maintain this
information in any sort of information store, the site managers apparently believed they were
not "collecting personal information." However, it is SFA policy to provide reminders and
assurances of privacy protection wherever there is even the possibility of a question, so we
will modify these sites accordingly.

From NCES: Item 29 of attachment 1 of the draft audit report is incorrect. The link
indicated, ed.gov/surveys/, is an asp page that contains an overview of the various
surveys conducted by NCES. It does not collect any personally identifiable information.
Our surveys are collected online at the following URLs:
         IPEDS:                          <hftp://surveys.nces.ed.gov/ipeds/>
         Academic Libraries:             <hftp://surveys.nces.ed.qov/library/aIs/>
         State Library Agencies:         <hftp://surveys.nces.ed.gov/1ibrary/stla/>
These sites do collect personally identifiable information. Each of these URLs is an
introductory page describing the survey - complete with the OMB clearance number.
Each page contains a privacy policy synopsis describing the site's use of cookies as well
as a link to the full NCES privacy policy.



                                                4
                                         Amended 02/15/01
                                                                                              Attachment 3



From OCIO: Twenty-four of the items listed as lacking the required privacy policy links
(all items identified on www.ed.gov, pfie.ed.gov, and stw.ed.gov) have been fixed:
D 16 items were corrected by adding the required link to the general ED privacy policy
      statement and/or adding language specific to the page: #s 1, 5, 8, 9, 10, 14, 15, 16,
      18, 19, 22, 23, 30, 31, 32, 33
D 6 items were obsolete and were deleted: #s 6 7 11 12 13 20




                                                     5
                                               Amended 02/15/01
